           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

   SUPPLEMENTAL SECURITY INCOME
   OVERPAYMENT NOTICES NOT SENT

     August 2010   A-01-09-19037




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 30, 2010                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Supplemental Security Income Overpayment Notices Not Sent (A-01-09-19037)



        OBJECTIVE
        Our objective was to assess the Social Security Administration's (SSA) efforts to
        recover overpayments from Supplemental Security Income (SSI) recipients.

        BACKGROUND
        In Fiscal Year 2009, SSA paid nearly 7.7 million SSI recipients over $48 billion in
        Federal benefits and State supplementary payments and identified approximately
        $4 billion in SSI overpayments. An overpayment is a payment made to an individual
        over a specific period where it is determined that more than the correct amount was
        paid. The Social Security Act indicates that when the recovery of an overpayment is
        determined to be appropriate, it must be made by adjustment of future payments to the
        individual or by recovery from such individual or his eligible spouse (or from the estate
        of either) after this determination. 1

        SSA does not initiate recovery efforts until a notice of overpayment is issued to the
        recipient. 2 Therefore, to maintain optimum effectiveness in recovering an overpayment,
        an overpayment notice should be sent to the individual as soon as possible. 3

        Many overpayment notices are generated through the Automated Overpayment Notice
        System. Overpayment cases that are not processed through this System require a
        manually prepared notice.



        1
            The Social Security Act §§ 1631(b)(1)(A) and (B); 42 U.S.C. §§ 1383(b)(1)(A) and (B).
        2
            SSA, POMS, GN 02280.030 A 1 and GN 02201.011 A 1.
        3
            SSA, POMS, GN 02201.009 A.
Page 2 - The Commissioner


To manage unresolved overpayment notices, a system-generated diary alert is used to
flag cases to notify SSA that a manual overpayment notice needs to be sent. The diary
system was designed to ensure individual records are current and accurate. SSA field
offices are notified of a pending diary through a secure printer in the office. If no action
is taken after a specified period, the case is put on a follow-up list. A database contains
all monthly diary alerts sent to each field office. Development of the diary and
necessary actions should be taken by the time the diary date is reached.

In our September 2003 audit, Assessment of the Supplemental Security Income
Fugitive Felon Project (A-01-03-23070), we identified 23 individuals with overpayments
totaling approximately $85,800 for which SSA had not initiated recovery efforts.

To determine the extent of this issue nationwide, we identified approximately 12,500 SSI
recipients—as of October 2009—who did not appear to have been sent an overpayment
notice. From this information, we determined that 200 individuals were currently
receiving SSI payments from which SSA had not initiated overpayment recovery efforts.
(See Appendix B for information on our scope and methodology.)

RESULTS OF REVIEW

Of the 200 SSI recipients in our
population, 91 were not sent                                          Results of Review
overpayment notices. Without these                          Notice                              Over-
                                                           Resolved                          payment Not
notices, SSA was unable to initiate
                                                             21%                              Collectable
recovery of $218,536.                                                                             8%
Specifically, for the 200 cases reviewed,
•   91 had no overpayment notice sent,
•   49 were pending further action on the                                                         Notice
    overpayment(s), 4                                   Pending                                Erroneously
                                                         Action                                  Not Sent
•   43 had an overpayment notice issued                   25%                                      46%
    recently, and 5
•   17 had an overpayment(s) not considered collectable by SSA. 6


4
  Pending further action items include: bankruptcy filings, investigations by the Office of the Inspector
General, pending appeals, third-party billing situations, or overpayments greater than 10 years old. For
example, a recipient was overpaid $2,408 between May and August 2004 and an overpayment was
recorded in July 2004. When we referred this case to SSA, it responded that an appeal was still pending
regarding the recipient’s eligibility and therefore the Agency could not yet initiate recovery.
5
 SSA sent overpayment notices during our audit period to these 43 beneficiaries. Of these 43 cases, we
did not refer 41 to SSA because the Agency had recently issued the overpayment notices.
6
 For example, a recipient was overpaid $2,208 from September through December 2003. SSA
documented this overpayment in December 2003 but never sent a notice. When we referred this case to
SSA, the overpayment was deleted from the record because it was determined to be erroneous.
Page 3 - The Commissioner


OVERPAYMENT NOTICES NEVER SENT

Of the 200 cases we initially identified, 91 (46 percent) required a notice to be sent for
overpayments totaling $218,536. As of June 2010, 13 cases, totaling $8,333, were still
waiting for overpayment notices to be sent. The age range of these overpayments is
shown in Table 1.

                                 Table 1: Age of Overpayments
                                        Number of       Overpayment
                         Age                                                  Percent
                                         Cases            Amount
                More than 5 years              3             $21,012               3%
                4 to 5 years                   1                $252               1%
                3 to 4 years                   9             $28,191             10%
                2 to 3 years                  17             $61,353             19%
                1 to 2 years                  57            $102,793             63%
                1 year or less                 4              $4,935               4%
                 Total                        91            $218,536            100%

SSA determined these overpayment notices were not sent because of system and/or
manual errors. For example, a recipient was overpaid $10,870 from November 2002
through February 2005. SSA documented this overpayment in February 2005 but had
not issued a notice to the recipient. When we referred this case to SSA, it was
determined there was no diary alert on the record to indicate that an overpayment
notice was necessary. SSA issued an overpayment notice on April 21, 2010 to begin
recovery efforts. If SSA had sent the notice in February 2005, the Agency could have
recovered $3,776 as of June 2010. 7

                       Fifteen of the 91 cases (17 percent) had an appropriate diary alert
Monitoring Diary
                       indicating that an overpayment notice needed to be sent.
Alerts
                       However, no notice had been issued for these cases. The age
range of these diary alerts is shown in Table 2.




7
  20 C.F.R. § 416.571 limits monthly overpayment recovery for an individual in current pay status to the
lesser of (1) the amount of the individual’s benefit payment for that month or (2) an amount equal to
10 percent of the individual’s total income (countable income plus SSI and State supplementary
payments) for that month.
Page 4 - The Commissioner



                                     Table 2: Age of Diary Alerts
                                      Number of        Overpayment
                          Age                                              Allocation
                                        Cases            Amount
                       1-2 years            10              $74,356            67%
                       < 1 year              5              $13,708            33%
                        Total               15              $88,064           100%

The remaining 76 of these 91 cases went undetected by SSA’s system and staff as
needing a proper diary alert and/or subsequent overpayment notice.

In 38 of these cases, a different diary alert was coded to place overpayment collection
on hold. 8 Because of this diary alert, the system was not able to generate the proper
diary alert to notify SSA that an overpayment notice needed to be sent. In all these
cases, the pending diary alert should have been removed since proper development of
the cases had been completed, thereby allowing recovery efforts to be initiated.

                      We found 3 of the 91 cases had an overpayment sequence
Overwriting Prior
                      updated with additional, more recent overpayment information,
Overpayment
                      yet a notice still had not been sent as of June 2010. Information
Sequences
                      about overpayment occurrences is stored on SSA’s records.
                      Each new overpayment and subsequent increase or decrease
forms a sequence that is assigned a number. Sequences can be modified as long as
an overpayment notice has not been issued.

For example, a recipient was overpaid $7,574 from August 2007 through July 2008.
SSA documented this overpayment in August 2008 but never issued a notice. When
this case was referred to SSA, the overpayment sequence in question was modified to
show an overpayment of $22,217 for the extended period August 2007 through
May 2010. As of June 2010, an overpayment notice had not been sent.




8
    This diary alert holds overpayment collection due to a referral to another agency or bankruptcy decision.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Overall, SSA had initiated recovery efforts for most cases with an identified
overpayment. Within the small population we identified, we found cases for which an
overpayment notice had not been sent—sometimes for many years. Therefore, we
recommend SSA:

1. Remind management and staff to send overpayment notices as soon as possible
   and monitor and process diary alerts for unresolved overpayment notices.

2. Issue an overpayment notice for the remaining 13 cases in the population.

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix C.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.

•   Reviewed prior Office of the Inspector General reports.

•   Retrieved Supplemental Security Income records with an unresolved overpayment
    amount. We then summarized the data by Social Security number and applied
    additional criteria to identify records with specific overpayment sequences where
       a straight overpayment or increase to a previously existing overpayment was on
        the record;
       a manual overpayment notice was needed or an automated notice was delayed;
       the full overpayment sequence amount was still outstanding;
       the overpayment amount was greater than $50;
       the overpayment detection date was within a 10-year period, between
        June 1, 1999 and May 31, 2009;
       the notice date field was blank; and
       the notice status code indicated that a notice still needed to be sent.

•   After these criteria were applied, we identified 12,543 records that may not have
    been sent an overpayment notice as needed. We then analyzed the records and
    identified 200 records still in pay status as of October 2009. 1 After our initial review
    of the 200 cases, we identified 117 cases that did not appear to have been sent an
    overpayment notice. We referred these 117 cases to SSA for review on
    March 5, 2010 to (1) explain why an overpayment notice was not sent and recovery
    efforts were not initiated for the overpayment(s) in question and (2) correct the
    records, as necessary.

•   Calculated overpayments that could have been recovered had the notices been
    sent.




1
 We reviewed a sample of cases in non-pay status and determined there were no significant issues to
warrant further review.


                                                 B-1
We conducted our audit between February and June 2010 in Boston, Massachusetts.
We found the data used for this audit were sufficiently reliable to meet our audit
objective. The entities audited were SSA field offices under the Deputy Commissioner
for Operations, and the Office of Applications and Supplemental Security Income
Systems under the Deputy Commissioner for Systems. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                         B-2
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM


Date:      August 16, 2010                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner


Subject:   Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income
           Overpayment Notices Not Sent” (A-01-09-19037)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. Attached is our
           response to the report findings and recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SUPPLEMENTAL SECURITY INCOME OVERPAYMENT NOTICES NOT
SENT” (A-01-09-19037)

We offer the following comments.

General Comment

We appreciate your statement on page 4, where you recognize that “Overall, SSA had initiated
recovery efforts for most cases with an identified overpayment.” Nevertheless, we do agree with
your recommendations and will take actions to further improve our process.

Recommendation 1

Remind management and staff to send overpayment notices as soon as possible and monitor and
process diary alerts for unresolved overpayment notices

Comment

We agree. By August 31, 2010, we will issue an administrative message reminding management
and staff to send overpayment notices when overpayments are determined and process diary
alerts for unresolved overpayment notices.

Recommendation 2

Issue an overpayment notice for the remaining 13 cases in the population.

Comment

We agree. By August 31, 2010, we will issue overpayment notices for the remaining 13 cases.




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Katie Greenwood, Auditor

   Kevin Joyce, IT Specialist

   William Kearns, IT Specialist

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-19037.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
